 SEMIANNUAL REPORT TO CONGRESS

      April 1, 2004 to September 30, 2004




                   NATIONAL
                  ENDOWMENT
                    FOR THE
                  HUMANITIES


  “Democracy demands wisdom and vision in its citizens”
National Foundation on the Arts and Humanities Act of 1965
                    THE OFFICE OF INSPECTOR GENERAL

                                 serves American taxpayers
                           by investigating reports of waste, fraud,
                        mismanagement, abuse, integrity violations or
                          unethical conduct involving federal funds.



                               To report any suspected activity
                     involving NEH programs, operations, or employees

                                      Call the OIG Hotline

                                         (202) 606-8423



                                        Mailing Address

                      Office of Inspector General — Hotline
                     National Endowment for the Humanities
                          1100 Pennsylvania Ave. N.W., Room 419
                                 Washington, DC 20506


                                     Fax:   (202) 606-8329


                              Electronic Mail Hotline: oig@neh.gov




Government employees are protected from reprisal

Caller can remain anonymous

Information is confidential



This report is also available on the NEH/OIG Website at http://www.neh.gov/whoweare/
oig.html
      NATIONAL                                                                 OFFICE OF INSPECTOR GENERAL
      ENDOWMENT                                                                1100 PENNSYLVANIA AVE., NW
      FOR THE                                                                  WASHINGTON, D.C. 20506
      HUMANITIES                                                               ROOM 419
                                                                               TELEPHONE(202) 606-8350
                                                                               FACSIMILE (202) 606-8329
                                                                               E-mail sbernstein@neh.gov



                                         October 29, 2004

Honorable Bruce Cole
Chairman
National Endowment for the Humanities
Washington, D.C. 20506

Dear Chairman Cole:

I am pleased to provide you with the Office of Inspector General’s Semiannual Report to Con-
gress for the second half of fiscal year 2004.

The report is submitted in accordance with the Inspector General Act of 1978, as amended.
Section 5 of the Act requires that you submit this report, with your Report of Final Action, to
the appropriate committee or subcommittee of the Congress within 30 days of its receipt. The
report provides a summary of the activities of the OIG during the six- month period ended
September 30, 2004.

During this period, we completed and issued reports on one internal review; one inspection
report on the accounting and management systems of a grantee and its two subcontractors; and
two overhead desk reviews. In addition, we processed 105 OMB Circular A-133 audit reports,
with 15 containing findings. We also issued a special management advisory memorandum in-
forming the agency of an internal control weakness. Two inspections of grantee accounting
and management systems, one audit of costs claimed by a grantee, five overhead desk reviews,
and one quality review of a grantee’s accounting firm are in progress. In the investigations
program, we received several “Hotline” contacts. Three contacts from this period and two
from the prior semiannual report are open.

I appreciate your support and look forward to working with you and all agency staff to help
ensure that NEH delivers grant awards in an economical, effective and efficient manner.

                                             Sincerely,



                                             Sheldon L. Bernstein
                                             Inspector General
                                        TABLE OF CONTENTS



LETTER TO THE CHAIRMAN

THE NATIONAL ENDOWMENT FOR THE HUMANITIES…… ........................................                                     1

THE OFFICE OF INSPECTOR GENERAL.....................................................................                     1

AUDIT AND REVIEW ACTIVITIES ................................................................................             2

INVESTIGATIVE ACTIVITIES ……………………………………………………………………                                                                      7

OTHER ACTIVITIES.....................................................................................................   10

TABLE I - REPORTING REQUIREMENTS………………………………………………… .....                                                               12

TABLE II - INSPECTOR GENERAL-ISSUED REPORTS ................................................                            13
WITH QUESTIONED COSTS

TABLE III - INSPECTOR GENERAL-ISSUED REPORTS WITH ......................................                                13
RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

GLOSSARY OF AUDIT TERMINOLOGY .......................................................................                   14
                   THE NATIONAL ENDOWMENT FOR THE HUMANITIES
       In order to promote progress and scholarship in the humanities and the arts in the United States,
       Congress enacted the National Foundation on the Arts and the Humanities Act of 1965. This Act
       established the National Endowment for the Humanities as an independent grant -making agency of
       the federal government to support research, education, and public programs in the humanities.
       Grants are made through four divisions - Research Programs, Education Programs, Preservation and
       Access, and Public Programs -- and two offices -- Challenge Grants and Federal-State Partnership.
       The divisions and offices also administer the We the People: NEH’s American History initiative.

       The Act that established the National Endowment for the Humanities says "The term 'humanities'
       includes, but is not limited to, the study of the following: language, both modern and classical;
       linguistics; literature; history; jurisprudence; philosophy; archaeology; comparative religion; ethics; the
       history, criticism, and theory of the arts; those aspects of social sciences which have humanistic
       content and employ humanistic methods; and the study and application of the humanities to the
       human environment with particular attention to reflecting our diverse heritage, traditions, and history
       and to the relevance of the humanities to the current conditions of national life."



                            THE OFFICE OF INSPECTOR GENERAL
       The NEH Office of Inspector General was established April 9, 1989, in accordance with the Inspector
       General Act Amendment of 1988, (Public Law 100-504). In this legislation, Congress established
       Offices of Inspector General in several departments and in thirty-three agencies, including the NEH.
       The NEH Inspector General (IG) is appointed by the Chairman. The independence of the IG is an
       important aspect of the Act. For example, the IG:

       •    cannot be prevented from initiating, carrying out, or completing an audit or investigation, or from
            issuing any subpoena;

       •    has access to all records of the agency;

       •    reports directly to the Chairman, and can only be removed by the Chairman, who must promptly
            advise Congress of the reasons for the removal; and

       •    reports directly to Congress.

       The Act states that the Office of Inspector General is responsible for (1) conducting audits and investi-
       gations; (2) reviewing legislation; (3) recommending policies to promote efficiency and effectiveness;
       and (4) preventing and detecting fraud, waste, and abuse in the operations of the agency. The
       Inspector General is also responsible for keeping the Chairman and Congress fully and currently
       informed of problems and deficiencies in the programs and operations.

       The OIG staff consists of the Inspector General, a Deputy Inspector General, two auditors, and a
       secretary. The OIG and the Office of the General Counsel (OGC) have a Memorandum of
       Understanding detailing the procedures for the OIG to be provided with OGC legal services.
       Investigations are handled by the Inspector General, an auditor and as required by the agency’s
       Assistant General Counsel.




NEH OIG Semiannual Report                                      1                                                     September 2004
                                 AUDIT AND REVIEW ACTIVITIES


                                          LIST OF REPORTS ISSUED

         This office is responsible for external and internal audits. External auditing includes grants, pre-
         award accounting system surveys, review of OMB Circular A-133 audit reports, overhead desk re-
         views, and on-site quality control reviews of CPA work papers. Internal efforts consist of audits,
         inspections, and reviews/evaluations of NEH administrative, programmatic, and financial operations.

         Following is a list of reports issued by the OIG during this reporting period. We also received 105
         OMB Circular A-133 audit reports and processed fifteen containing findings (see Single Audit Act
         Reviews). The Inspector General Act of 1978, as amended, requires us to report on the "Dollar
         Value of Recommendations that Funds Be Put to Better Use" and the "Total Dollar Value of Ques-
         tioned Costs" (including a separate category for the “Dollar Value of Unsupported Costs”). None are
         reported during this period.

         INTERNAL AUDITS/REVIEWS                                      Report Number              Date Issued

         Federal Information Security Management Act Review           OIG-04-02(IR)              09/30/04

         Accounting System Internal Control Weakness                  MAM                        07/21/04
         (Management Advisory Memorandum)

         EXTERNAL AUDITS/REVIEWS/SURVEYS

         Inspection of the Catticus Corporation                       OIG-04-01 (I)              07/12/04

         SINGLE AUDIT ACT REVIEWS

         La Fundación Puertorriqueña de las Humanidades               OIG-04-01   (CAA)          09/16/04
         New York Foundation for the Arts                             OIG-04-02   (CAA)          09/16/04
         Oregon Council for the Humanities                            OIG-04-03   (CAA)          09/16/04
         St. Thomas Foundation                                        OIG-04-04   (CAA)          09/16/04
         The Filmmakers Collaborative                                 OIG-04-05   (CAA)          09/22/04
         Humanities Council of Washington                             OIG-04-06   (CAA)          09/22/04
         Ohio Humanities Council                                      OIG-04-07   (CAA)          09/22/04
         Rhode Island Council for the Humanities                      OIG-04-08   (CAA)          09/22/04
         Vermont Humanities Council                                   OIG-04-09   (CAA)          09/22/04
         Florida Humanities Council                                   OIG-04-10   (CAA)          09/30/04
         Humanities Tennessee                                         OIG-04-11   (CAA)          09/30/04
         Kentucky Humanities Council                                  OIG-04-12   (CAA)          09/30/04
         Minnesota Humanities Commission                              OIG-04-13   (CAA)          09/30/04
         Montana Committee for the Humanities                         OIG-04-14   (CAA)          09/30/04
         New Mexico Endowment for the Humanities                      OIG-04-15   (CAA)          09/30/04


         OVERHEAD DESK REVIEWS

         Ways of Knowing                                              NEH-04-06 (ODR)            08/25/04
         Virginia Historical Society                                  NEH-04-07 (ODR)            08/31/04




NEH OIG Semiannual Report                                   2                                                   September 2004
                            AUDIT AND REVIEW ACTIVITIES (Continued)

                                          SUMMARY OF REPORTS ISSUED
                                                INTERNAL REVIEWS/AUDITS

           •    We issued report OIG-04-02 (IR), Federal Information Security Management Act Review
                (FISMA) on September 30, 2004. This review was conducted to determine NEH’s compliance
                with FISMA, Office of Management and Budget guidance on FISMA and E-Authentication, and
                National Institute of Standards and Technology (NIST) guidance on information security. Our
                scope was limited to NEH IT security policies that were in force for fiscal year 2004.

                 We found these deficiencies:

                    •       The NEH Accounting System was not certified and accredited prior to operating in ac-
                            cordance with OMB Circular A-130. This system still has not been certified and ac-
                            credited. The OIG considers this a reportable condition as defined by OMB’s FISMA
                            reporting guidance.

                    •       The security tests and testing schedule recommended by the NEH Security Officer
                            (SO) are not in compliance with NIST guidance.

                Several recommendations were made to correct the deficiencies.

           •    We issued a Management Advisory Memorandum concerning an accounting system internal
                control weakness, on July 21, 2004. We reported on a problem related to segregation of duties
                in the NEH requisition process.

                We made recommendations that are necessary to improve the internal control system. Our
                understanding is that management agrees to make the necessary changes.




NEH OIG Semiannual Report                                       3                                                  September 2004
                            AUDIT AND REVIEW ACTIVITIES (Continued)

                            EXTERNAL AUDITS/REVIEWS/SURVEYS/OVERHEAD DESK REVIEWS

       •    We issued report OIG-04-01 (I), Inspection Report on Catticus Corporation (a California corpora-
            tion) on July 12, 2004. NEH awarded Catticus a grant that was subcontracted out to two other organi-
            zations. Catticus was in fact the fiscal agent for Videoline Productions, and Two Dollars and A Dream,
            both located in New York City.

            The objective of this review was to determine the adequacy of the grantee’s accounting system, inter-
            nal controls, and monitoring procedures related to the two subrecipients. In addition, we reviewed the
            adequacy of the two subrecipients’ accounting system and internal controls. The grantee was selected
            for this review because the organization received a substantial award from NEH and was not required
            to have an OMB Circular A-133 audit.

            We found that for all three organizations, the accounting system and the procedures in use at the time
            of the review were adequate for controlling and monitoring costs incurred by the organizations. How-
            ever, we did make several recommendations to further improve the systems for the accounting of fed-
            eral funds.
                                             OVERHEAD DESK REVIEWS

       The NEH OIG performs overhead desk reviews (ODRs) for grantees requiring an indirect cost rate. The
       reviews are done in accordance with the PCIE, Quality Standards for Inspections. The OIG sends the re-
       sults of the ODRs to the NEH Accounting Office, where a member of that staff negotiates the indirect cost
       rates with the grantees. We completed two reviews during this period,




NEH OIG Semiannual Report                                    4                                                September 2004
                            AUDIT AND REVIEW ACTIVITIES (Continued)


                                                  SINGLE AUDIT ACT REVIEWS

          In fiscal year 2004, the NEH spent approximately 85% of it's annual expenditures on grantees. Many of
          NEH’s grantees are covered by the Single Audit Act Amendments of 1996. Grantees expending
          $300,000 or more in federal dollars per annum are required to obtain an OMB Circular A-133 audit. The
          OIG receives A-133 reports from other federal agencies (mainly the Department of Health and Human
          Services), state and local government auditors, and independent public accountants. The objective of
          the audit is to determine whether federal funds are expended in accordance with applicable laws and
          regulations.

          During the six-month period ended September 30, 2004, we reviewed 105 OMB Circular A-133 audit
          reports. Fifteen of the reports contained audit findings and summaries of these reports were issued to
          NEH for action and follow-up. The most common deficiencies noted were that the organizations:

          1.   did not adequately monitor subrecipient activities;

          2.   failed to adhere to federal reporting requirements; and

          3.   lacked satisfactory internal control/segregation of duty policies and procedures such as:

                   a.   bank reconciliations were not reviewed by anyone other than the person doing the recon-
                        ciliation,

                   b.   invoices paid were not stamped “paid” to avoid using the invoice twice,

                   c.   travel policies were not formalized in writing,

                   d.   executive director’s expenditures were not approved by a board member,

                   e.   approval on invoices were lacking, and

                   f.   purchase orders were not used.

          The OIG will be increasing our efforts to monitor these single audit reviews because we continually find
          deficiencies during our quality control reviews (QCRs) of independent auditor workpapers.




NEH OIG Semiannual Report                                      5                                              September 2004
                            AUDIT AND REVIEW ACTIVITIES (Continued)

                                                AUDITS/REVIEWS IN PROGRESS

                                  United States Accountability of Tax Dollars Act of 2002

      This law requires NEH, as well as several other small agencies and commissions, to prepare and submit
      to the Congress and the Director of the U.S. Office of Management and Budget an audited financial
      statement. NEH received a written waiver from OMB for fiscal year 2003, and a verbal waiver for fiscal
      year 2004. During this period, staff took training to provide adequate management of the audit.


                            Inspection of Grantee’s Accountability and Management Systems

      The objective of this review is to determine the adequacy of the grantee’s accounting system, internal
      controls, and management policies to provide reasonable assurance that NEH grant projects are ac-
      counted for and managed in accordance with NEH requirements.

      Two inspections are in progress:

      •    Southeastern Library Network, Inc., Atlanta, GA

      •    AMIGOS Library Services, Inc., Dallas, TX


                                                  Audit of Grantee Costs Claimed

      The objective of this audit is to determine if the costs charged to the grant awarded to the Theolonius
      Monk Institution of Jazz, Washington, DC are allowable in accordance with NEH requirements and appli-
      cable OMB Circulars.

                                                     Overhead Desk Reviews

                            Grantee                                                City, State

                            The Center for Research Libraries, Inc.                Chicago, IL
                            The Huntington Library                                 San Marino, CA
                            Southeastern Library Network                           Atlanta, GA
                            Amigos Library Services                                Dallas, TX
                            Oxford University Press                                New York, NY




NEH OIG Semiannual Report                                        6                                         September 2004
                                     INVESTIGATIVE ACTIVITIES

                                                      BACKGROUND

       The Inspector General Act provides the authority for the Office of Inspector General to investigate
       possible violations of criminal or civil laws, administrative regulations, and agency policies, which relate
       to the programs and operations of the NEH. The OIG Hotline, e-mail address, and regular mail are
       efficient and effective means of receiving allegations or complaints from employees, grantees,
       contractors, and the general public. The OIG has obtained assistance from other OIGs, the Federal
       Bureau of Investigation, the Postal Inspection Service, and other investigative entities as necessary.

       When the OIG receives a complaint or allegation of a criminal or administrative violation, we make a
       determination of the appropriate action to take. This can be an audit, an investigation, a referral to
       another NEH office or division, or a referral to another federal agency.

       As of April 1, 2004, three cases were open. During the six months ended September 30, 2004, we
       received seventeen “Hotline" contacts. We are holding five matters open at September 30, 2004.


                                                OPEN AT APRIL 1, 2004
       One matter concerning the unauthorized release of confidential information was sent to the Department
       of Justice (DOJ) for further review. The DOJ declined prosecution and the case was resolved adminis-
       tratively.

       The second case involving a grantee institution and project director that may have provided false infor-
       mation in grant applications has been referred to senior level officials at the institution. The case is be-
       ing handled under the NEH Policy of Research Misconduct. The organization will provide an internal
       investigative report to the NEH OIG. The IG has the authority to accept, reject, or perform additional
       work as necessary. The organization is expected to report to the NEH OIG in December 2004.

       The third matter concerns a grantee in the New England area that submitted a number of incorrect finan-
       cial reports. This case remains active. The attorneys for the grantee, NEH, and the OIG are working on
       a settlement.

                                          CONTACTS DURING THE PERIOD


       We received seventeen contacts during this six-month period. Eight concerned internal NEH matters,
       three of which were closed after the OIG made inquiry into the matters and found they were unsubstanti-
       ated. One internal issue involved ethical conduct and this was referred to the NEH ethics official.

       Two contacts concerned the new NEH accounting system and one involved the use of gift funds received
       by NEH. These three complaints were combined with one contact received from the General Account-
       ability Office (GAO) in August 2004 which referenced similar issues. We have closed the respective files
       for the three contacts since the subject complaints are addressed as part of our investigation of the com-
       plaints forwarded by GAO. The GAO letter stated that they received an anonymous e-mail that contained
       six allegations of wrong doing by NEH management. This investigation is still in process.

       Another matter involved an EEO allegation, by a prospective grant applicant, that NEH discriminates
       against a minority group. Since the NEH EEO official was not in town, the OIG handled the case. We
       gathered information from several NEH offices that provided the basis for our conclusion that the com-
       plaint had no merit. We closed the file.




NEH OIG Semiannual Report                                      7                                                      September 2004
                            INVESTIGATIVE ACTIVITIES (Continued)

      Five contacts involved NEH grantees:

      ♦    One contact included a charge that an employee at a grantee organization forged checks and used
           NEH funds to purchase personal items. The organization’s attorneys contracted with an independ-
           ent public accountant (IPA) to audit the books and records. The IPA determined that NEH funds
           were misappropriated. We requested and received a refund.

      ♦    One complaint was referred to the OIG Audit Division and an audit was initiated in late September
           2004.

      ♦    One grantee matter concerned misuse of funds; however, the allegation did not specifically state
           that federal funds were involved. We intend to pursue this in the next semi-annual period.

      ♦    One complaint concerned an NEH challenge grant. We were unable to look into this matter during
           this period due to other priorities.

      ♦    One complaint concerned a charge of misappropriation of funds by a grantee that has discontinued
           operations. We were unable to look into this matter during this period due to other priorities.

      Three other contacts were found not to be NEH issues, and were referred to other agencies.


                              MATTERS REFERRED TO PROSECUTIVE AUTHORITIES

      One new case was referred for criminal prosecution during this reporting period. The U.S. Attorney’s
      Office declined prosecution. The matter has been settled administratively.


                                     HOTLINE AND PREVENTION ACTIVITIES

      We maintain a local Hotline phone number, agency e-mail address, and an Internet address to provide
      additional confidentiality for those persons bringing matters to the attention of the OIG. We continue to
      issue agency-wide e-mail messages to NEH staff informing them of violations that should be reported to
      the OIG. We also send e-mail messages several times during the year to inform NEH staff about the OIG
      operations. Posters advising staff to contact the OIG are displayed throughout the agency’s facilities.


                                               ANONYMOUS E-MAIL

      We have on the NEH Intranet and the Internet a system for staff, grantees, contractors, etc. to report
      waste, fraud, abuse, and mismanagement in an anonymous manner.




NEH OIG Semiannual Report                                    8                                                 September 2004
                              INVESTIGATIVE ACTIVITIES (Continued)


                                                 SUMMARY OF INVESTIGATION ACTIVITY



                                                   Open at beginning of period      3


                                                Matters brought to the OIG during
                                                       the reporting period         17


                                                    Total investigative contacts    20

                                                     Closed or referred during
                                                       the reporting period         15   (a)



                                                       Open at end of period         5


          (a) Three cases were combined with the GAO contact.




NEH OIG Semiannual Report                                             9                        September 2004
                                          OTHER ACTIVITIES

                                     PARTICIPATION ON THE EXECUTIVE COUNCIL ON
                                              INTEGRITY AND EFFICIENCY

       The Executive Council on Integrity and Efficiency (ECIE) was established by the President in 1992
       to coordinate and implement government-wide activities to combat fraud and waste in federal
       programs and operations. OIG staff regularly attend ECIE meetings and provide information to the
       ECIE.

                                       REGULATORY AND LEGISLATIVE REVIEWS


       The Inspector General Act of 1978, as amended, requires the Office of Inspector General to review
       proposed legislation and regulations. The reviews are made to assess whether the proposed legisla-
       tion and/or regulations (1) impact on the economy and efficiency of agency programs and operations,
       and (2) contain adequate internal controls to prevent and detect fraud and abuse. During this period
       we provided the ECIE with comments on various matters affecting the Inspector General.



                                              WORKING WITH THE AGENCY

        In this period, OIG staff attended and engaged in various NEH meetings - panel meetings (where
        grant applications are reviewed by outside consultants), pre-council meetings (where program staff
        discuss panel review results with the chairman and his immediate staff), and the National Council
        meeting. In addition, the IG and Deputy IG attended the Chairman's monthly policy group meetings.
        An OIG staff person attended monthly NEH Employee Association meetings. OIG staff was also in-
        volved in the review of NEH administrative directives.

        The Office of Inspector General contributes to the discussions; however, the office does not partici-
        pate in policy making.


     PEER REVIEW OF THE U.S. COMMODITY FUTURES TRADING COMMISSION ~ OIG AUDIT FUNCTION

        During this period, the OIG reviewed the audit function of the U.S. Commodity Futures Trading Commission ~
        Office of Inspector General (CTFC-OIG). Our review covered the year ended September 30, 2003 and was
        conducted in conformity with standards and guidelines established by the President’s Council on Integrity and
        Efficiency. We issued our report to the CTFC-OIG on August 27, 2004.


                                               OIG INTERNET AND INTRANET

        The OIG has listed several semiannual reports on the Internet. The reports are accessible through the
        NEH homepage and the OIG homepage (http://www. neh.gov/whoweare/OIG.html).

        To enhance the NEH staff's recognition of the OIG mission and responsibilities, we provide links to
        several other federal agencies such as the Office of Management and Budget, the General Accounting
        Office, the Office of Government Ethics, and the IGNET.




NEH OIG Semiannual Report                                   10                                                  September 2004
                                     OTHER ACTIVITIES (Continued)


                                INVESTIGATION ASSISTANCE GIVEN TO IMLS


     Under an agreement with the Institute of Museum and Library Services, (IMLS), the NEH OIG provides
     investigative services to IMLS. During this period, the OIG performed investigative work for IMLS con-
     cerning a grantee in Connecticut. A draft report has been issued to the IMLS general counsel.


                                           TECHNICAL ASSISTANCE


     Throughout the reporting period, OIG staff provided telephone technical assistance to NEH grantees and
     independent public accountants concerning various matters including the preparation of indirect cost pro-
     posals and the implementation of federal audit requirements.




NEH OIG Semiannual Report                                  11                                                    September 2004
                                                  TABLE I

                               REPORTING REQUIREMENTS


       The Inspector General Act of 1978, as amended (Public Law 100-504), specifies reporting
       requirements for semiannual reports. The requirements are listed and cross-referenced to the
       applicable pages in this report.


       IG Act Reference       Reporting Requirements                                          Page

       Section 4(a)(2)        Regulatory and Legislative Reviews………………………………                  10

       Section 5(a)(1)        Significant Problems, Abuses, and Deficiencies…………………           *

       Section 5(a)(2)        Recommendations for Corrective Action ………………………… *

       Section 5(a)(3)        Prior Significant Recommendations Unimplemented…………… *

       Section 5(a)(4)        Matters Referred to Prosecutive Authorities……………………… 8

       Section 5(a)(5)        Instances Where Information Was Refused or Not Provided…… *

       Section 5(a)(6)        List of Audit Reports Issued………………………………………… 2

       Section 5(a)(7)        Summary of Significant Reports…………………………………… 3-6

       Section 5(a)(8)        Audit Reports - Questioned Costs….……………………………… *

       Section 5(a)(9)        Audit Report - Funds To Be Put to Better Use.…….…………….. *

       Section 5(a)(10)       Prior Audit Reports Unresolved…………………………………..… *

       Section 5(a)(11)       Significant Revised Management Decisions………………………. *

       Section 5(a)(12)       Significant Management Decisions with which OIG Disagreed…..*



       * None this period




NEH OIG Semiannual Report                                 12                                          September 2004
                                                       TABLE II
                                          INSPECTOR GENERAL-ISSUED REPORTS
                                                WITH QUESTIONED COSTS


                                                                               Number     Questioned       Unsupported
                                                                             Of Reports    Cost              Cost
         A. For which no management decision has been made by the                  -0 -    $ -0 -            $-0 -
            commencement of the reporting period.


         B. Which were issued during the reporting period.                         -0 -    $ -0 -            $-0-


                                     Subtotals (A+B)                               -0 -    $ -0 -            $-0 -


         C. For which a management decision was made during
            the reporting period.

                  i.    Dollar value of disallowed costs.                          -0 -   $ -0 -             $ - 0-


                  ii.   Dollar value of costs not disallowed (grantee              -0 -   $ -0 -             $ - 0-
                        subsequently supported all costs).


         D. For which no management decision has been made by the                  -0 -   $ -0 -             $- 0-
            end of the reporting period.


         E. Reports for which no management decision was made within               -0 -   $ -0 -             $ -0 -
            six months of issuance.


                                                 TABLE III
                                     INSPECTOR GENERAL-ISSUED REPORTS
                            WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE


                                                                                               Number          Dollar
                                                                                               Of Reports      Value

         A. For which no management decision has been made by the commencement                      -0 -      $-0 -
            of the reporting period.

         B. Which were issued during the reporting period.                                       - 0-         $-0 -

         C. For which a management decision was made during the reporting period.                - 0-         $ -0 -

                  i. Dollar value of recommendations that were agreed to by management.          - 0-         $-0 -

                  ii. Dollar value of recommendations that were not agreed to by                    -0 -      $-0 -
                      management.

         D. For which no management decision was made by the end of the reporting                  -0 -       $-0 -
            period.




NEH OIG Semiannual Report                                       13                                                 September 2004
                            GLOSSARY OF AUDIT TERMINOLOGY


        Questioned Cost - A cost that is questioned by the OIG because of an alleged violation of a provision
        of a law, regulation, contract, grant, cooperative agreement, or other agreement or document
        governing the expenditure of funds; because such cost is not supported by adequate documentation;
        or because the expenditure of funds for the intended purpose is unnecessary or unreasonable.

        Unsupported Cost - A cost that is questioned because of the lack of adequate documentation at the
        time of the audit.

        Disallowed Cost - A questioned cost that management, in a management decision, has sustained or
        agreed should not be charged to the government.

        Funds Be Put To Better Use - Funds, which the OIG has disclosed in an audit report, that could be
        used more efficiently by reducing outlays, de-obligating program or operational funds, avoiding
        unnecessary expenditures, or taking other efficiency measures.

        Management Decision - The evaluation by management of the audit findings and recommendations
        and the issuance of a final decision by management concerning its response to such findings and
        recommendations.

        Final Action - The completion of all management actions, as described in a management decision,
        with respect to audit findings and recommendations. When management concludes no action is
        necessary, final action occurs when a management decision is made.

        Source: Excerpt from Section 106(d) of the Inspector General Act Amendments of 1988 (P.L. 100-
        504).




NEH OIG Semiannual Report                                  14                                             September 2004
